Annual Percentage Rate
(APR) for Purchases

36.0%

APR for Cash Advances 36.0%
Paying Interest

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

O
Set-up and
Maintenance
Fees

N

None

Transaction Fees

LI
None

Penalty Fees

N

$39.00
$39.00

Billing Rights:

E

How We Will Calculate Your Balance:

PY

O

C

FEES AND INTEREST CHARGES:
FEES AND INTEREST CHARGES:
INTEREST CHARGES
Periodic INTEREST CHARGES: INTEREST CHARGES
INTEREST CHARGES
INTEREST CHARGES
INTEREST CHARGES
How we calculate INTEREST CHARGES:
INTEREST CHARGE
CHARGE

Average Daily Balance

How we calculate Average Daily Balance and Daily Periodic Rate:

Average Daily Balance
INTEREST CHARGE
Average Daily Balance

INTEREST CHARGE
INTEREST
Daily Periodic Rate

Average Daily Balance
Daily Balances
Average Daily Balance
Daily Balance

O

Daily Periodic Rate
ANNUAL PERCENTAGE RATE
assessed to your Credit Account.
Late Payment Fee:

The APR applicable to Purchases will be applied to fees

N

Return Item Charge:

LI

OTHER CHARGES AND IMPORTANT INFORMATION:

Credit Insurance:
Total Minimum Amount Due:

N

TRUTH IN SAVINGS DISCLOSURE - SECURITY DEPOSIT ACCOUNT

Rate Information:
Minimum Balance Limitations:

E

Transaction Limitations:

®

®

®

C

See the Credit Card Contract for further information regarding this
Credit Account. Retain these important documents.

PY

O

YOUR BILLING RIGHTS
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement: If you think there is an
error on your statement, write to us at:
First PREMIER Bank
P.O. Box 5524
Sioux Falls, SD 57117-5524
(You may also contact us on the Web: www.mypremiercreditcard.com.)
In your letter, give us the following information:
• Account information: Your name and Credit Account Number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your Statement.
• At least three business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing (or electronically). You may
call us, but if you do we are not required to investigate any potential errors and
you may have to pay the amount in question.
What Will Happen After We Receive Your Letter: When we receive your
letter, we must do two things:
(1) Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
(2) Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your Statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement
of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases: If
you are dissatisfied with the goods or services that you have purchased with
your credit Card, and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the
Purchase.
To use this right, all of the following must be true:
(1) The Purchase must have been made in your home state or within 100 miles
of your current mailing address, and the Purchase price must have been more
than $50.00. (Note: Neither of these are necessary if your Purchase was based
on an advertisement we mailed to you, or if we own the company that sold you
the goods or services.)

(2) You must have used your credit Card for the Purchase. Purchases made with
Cash Advances from an ATM or with a check that accesses your Credit Account
do not qualify.
(3) You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the Purchase,
contact us in writing (or electronically) at:
First PREMIER Bank
P.O. Box 5524
Sioux Falls, SD 57117-5524
www.mypremiercreditcard.com
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you as
delinquent.
Your Liability for Unauthorized Use of Your Credit Account: You will not be
liable for unauthorized use of your Card or Credit Account. However, to protect
your rights, you are required to notify us orally or in writing as soon as you are
aware that your Card or Credit Account has been lost, stolen or used without
your consent. Certain exceptions apply. To notify us of the loss, theft or possible
unauthorized use of your Card, call us at 1-800-987-5521, 24 hours a day.

LI

N

O

STATE DISCLOSURES
California Residents: A married applicant may apply for a separate Credit
Account. As required by law, you are hereby notified that a negative credit
reporting reflecting on your credit record may be submitted to a Consumer
Reporting Agency if you fail to fulfill the terms of your credit obligations. After
credit approval, each applicant shall have the right to use the Credit Account
up to the limit of the Credit Account. Each applicant may be liable for amounts
extended under the plan to any joint applicant.
Delaware Residents: Service charges not in excess of those permitted by law
will be charged on the outstanding balances from month to month.
Kentucky Residents: You may pay the unpaid balance of your Credit Account in
whole or in part at any time.
Maryland Residents: Finance charges will be imposed in amounts or at rates
not in excess of those permitted by law.
Vermont Residents: First PREMIER Bank may obtain a consumer report for any
legitimate purpose in connection with your Credit Account or your application,
including but not limited to reviewing, modifying, renewing and collecting on your
Credit Account. Upon your request, we (First PREMIER Bank) will inform you
of the names and addresses of any Consumer Reporting Agencies that have
furnished the reports.
Ohio Residents: The Ohio laws against discrimination require that all creditors
make credit equally available to all credit worthy customers, and that Consumer
Reporting Agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with this law.
Married Wisconsin Residents: No provision of any marital property agreement,
unilateral statement, or court order applying to marital property will adversely
affect a creditor’s interests unless prior to the time credit is granted, the creditor
is furnished with a copy of the agreement, statement, or court order, or has actual
knowledge of that provision.
Washington Residents: A service charge will be computed on the outstanding
balance for each month. You may at any time pay your total unpaid balance.

E

N

Withdrawals: Since this deposit account is collateral for your Credit Account,
withdrawals are not permitted from this deposit account while there remains an
outstanding balance in your Credit Account or while you retain possession of
any Card. In the event that your Credit Account is cancelled either by you or by
us, we shall have a period of ninety (90) days from the earlier of the date of the
return of your Card or the expiration date of the Card for all charges made on the
Card to clear. When we receive payment in full under your Credit Account, and
upon the expiration of this period, we will remit to you the full amount remaining
in your deposit account.
Additional Terms and Disclosures: Additional information about your deposit
account, including applicable federal Truth In Savings Act disclosures, were
provided to you upon our receipt of your initial deposit or in the Truth In Savings
Act Disclosure.
Ownership of Account: Individuals--If the deposit account is opened in
the name of one person, it means the owner does not intend to create any
survivorship rights in any other person. Joint Accounts--If the deposit account
is opened in the name of more than one person, each person intends that upon
their death the balance in the deposit account (subject to the pledge to us) will
belong to the surviving person(s) named on the account.
Bankruptcy: If you become a debtor in any proceeding under the United States
Bankruptcy Code you agree that you will recognize us as a perfected secured
creditor with respect to the deposit account and that you will declare the deposit
account as exempt property pursuant to the provisions of the United States
Bankruptcy Code or applicable State exemption laws.
Amendments: We may amend the terms and conditions applicable to Your
Required Deposit Account separately from the remainder of this Contract at any
time upon reasonable notice to you by mail, as required by law. If this is a joint
account, notice by us to one of you is notice to both.
Pledge Agreement: As a security for the payment of all credit extended
through your Credit Account, you pledge to, and grant First PREMIER Bank,
its successors and assigns, a security interest in all funds now and hereafter
deposited in your deposit account. You authorize us to unconditionally restrict
withdrawals from your deposit account. If your Credit Account is in default, or if
your Credit Account is terminated for any reason, we may at any time thereafter,
and without notice to you (unless otherwise required by law), apply all or part of
the funds in your deposit account to the payment of any and all amounts owed on
your Credit Account. We may also exercise any other remedies under the terms
of this Contract or otherwise available in law.

O

C

TERMS AND CONDITIONS OF YOUR
REQUIRED DEPOSIT ACCOUNT
The following additional terms apply in connection with your required deposit
account.
Deposit: An initial deposit account balance is needed to open your Credit
Account. The initial deposit account balance amount needed is printed in the Truth
In Savings Act Disclosure. Once your Credit Account is opened, you may make
additional deposits to your deposit account up to a maximum deposit account
balance of $5,000.00. Any non-cash items tendered for deposit, (including items
drawn on us) will be given only provisional credit until collection is final. We are
not responsible for transactions initiated by mail or outside depository until we
actually receive them.

PY

We may also share information such as: (1) information other than our
own transactions with you with persons or entities related to the Bank
by common ownership or corporate control; or (2) information on your
Credit Account with certain companies to provide or offer you selected
products, services or cardholder benefits. You may direct us not to share
one or both of these. If this is your request call 1-800-987-5521 or notify us in
writing at First PREMIER Bank, P.O. Box 5528, Sioux Falls, SD 57117-5528.
Be sure to include your name, address and Credit Account number. You may
receive a copy of our information on your Credit Account by writing or calling
us at the address or telephone number listed above. By requesting or obtaining
a Credit Account, you authorize us to check your credit history. You authorize
your employer, bank and any other references listed to release and/or verify
information to us and our affiliates in order to determine your eligibility for the
Credit Account and any renewal or future extension of credit. If you ask, you will
be told whether or not consumer reports on you were requested and the names
of the Consumer Reporting Agencies, with their addresses, that provided the
reports. If you designate an Authorized User to use your Card, you understand
that account information may also be reported to Consumer Reporting Agencies
in the Authorized User’s name.
No Waiver: Even if we do not exercise any right we may have against you, we
do not intend to waive that right. We can exercise it against you in the future.
Binding Effect Upon Death or Incompetency: If we pay a merchant for a
Purchase or post a Cash Advance to your Credit Account before we receive
actual written notice of your death or incompetence, or if we pay a merchant
for a Purchase made by you or post a Cash Advance taken by you prior to your
death or incompetence, that transaction will be a valid and binding Credit Account
obligation upon you, your estate and your personal representatives.
Our Liability To You: We have no liability to you, other than as placed on us by
law. We will meet our duty to care for your Credit Account(s) under reasonable
banking procedures. Our mere clerical error or honest mistake will not be
considered a failure to perform any of our obligations.
Transactions in Foreign Currencies: If you make a transaction in a foreign
currency, it will be converted into U.S. dollars, and you agree to accept the
converted amount. Visa USA, Inc. or Mastercard International, Inc. will use
its currency conversion procedures in effect when processing the transaction.
The currency conversion rate will be a rate selected by Visa or Mastercard, as
applicable, from the range of rates available in wholesale currency markets
for the applicable central processing date, which rate may vary from the rate
Visa or Mastercard itself receives, or the government-mandated rate in effect
for the applicable central processing date, in each instance, plus a foreign
currency transaction fee in the amount disclosed on your Account Opening
Disclosures printed on the card carrier containing your Card. This fee will be paid
to us and applied to all transactions posted to your Credit Account in a foreign
currency, including all Purchase transactions, Cash Advance transactions, ATM
transactions and returns and adjustments (e.g., for returned merchandise). The
currency conversion rate used on the processing date may be different than the
rate that was in effect on the date you conducted the transaction. We do not set
the currency conversion rate, and we do not receive any portion of it. We do,
however, receive a foreign currency transaction fee as disclosed on your Account
Opening Disclosures printed on the card carrier containing your card.
Prohibition on Gambling and Illegal Transactions: Your Card and Credit
Account may not be used in connection with any gambling transaction (whether
legal or illegal). Also, your Card and Credit Account may be used only for valid
and lawful purposes. If you use, or allow someone else to use your Card or Credit
Account for any unlawful purpose or for any gambling transaction, you will be
responsible for such use and may be required to reimburse us for all amounts or
expenses we pay as a result of such use.
Call Recording: You agree and consent that we will record and may monitor
any calls between you and us. This includes both calls to and originated by First
PREMIER Bank, PREMIER Bankcard, LLC, our parent corporation, or any of our
affiliates, agents, independent contractors or service providers.

M-131918

MLA

08/20

First PREMIER Bank
CREDIT CARD AND DEPOSIT ACCOUNT CONTRACT
AND ACCOUNT OPENING DISCLOSURES (cont’d)
This Contract explains the terms and conditions of your Credit Account with us.
For additional important information on fees and INTEREST CHARGES and
other contract provisions that apply to your Credit Account, please review
the Account Opening Disclosures printed on the card carrier containing
your Card. Be sure to retain all Contract documents for future reference.
YOUR CONTRACT WITH US
Your Mastercard® or Visa® brand Credit Account is governed by the terms and
conditions in this Contract and the Account Opening Disclosures printed on the
card carrier containing your Card (“Contract”).
Applicable Law: No matter where you live, our Contract with you and the terms
of your Credit Account will be governed by the laws of the State of South Dakota
and applicable federal law.
Effective Date: Unless you are a resident of the State of New York, this Contract
is effective upon the earlier of (1) the first Purchase made or Cash Advance taken
on your Credit Account, and (2) the expiration of 30 days from the date we issue
the Card to you if you do not provide us written notice of your desire to cancel
within this 30 days. If you are a resident of the State of New York, this Contract
is not effective until the earlier of (1) the first Purchase made or Cash Advance
taken on your Credit Account, and (2) the date you move from the State of New
York, unless the date you move from the State of New York is less than 30 days
from the date we issue a Card to you, in which case this Contract will be effective
on the date that is 30 days from the date we issue a Card to you (and not the date
you move from the State of New York) if you do not provide us written notice of
your desire to cancel within this 30 days. In all cases, if any fees are required to
be paid prior to opening your Credit Account, this Contract will not be effective
and your Credit Account will not be opened until such fees are paid in full. You
are not obligated to pay any fees or INTEREST CHARGES (other than any fees
required to be paid prior to opening your Credit Account) until this Contract is
effective.
DEFINITIONS USED IN THIS CONTRACT
In this Contract, “we”, “us” and “our” each refer to First PREMIER Bank (the
“Bank”).
“Authorized User” means any person authorized by you to use the Card or
Credit Account.
“Billing Cycle” begins on the day after the Statement Closing Date of the
previous Statement and includes the Statement Closing Date of the current
Statement.
“Card” means all the plastic credit cards we issue to you or any other person
who is authorized to use the Credit Account. In the event we issue other devices
by which you can access your Credit Account, those devices will also be “Cards”
for purposes of this Contract.
“Closing Date” means the last day of any Billing Cycle.
“Credit Account” means the credit card account that we open for you and the
relationship that is established between you and us by this Contract. This Credit
Account is used to record transaction activity made by you when you access or
otherwise utilize the line of credit we extend to you when you use your Card.
“New Balance” means the outstanding balance of your Credit Account at the
end of any Billing Cycle. The New Balance is the sum of the Previous Balance
(defined as the New Balance shown on your last Statement) less payments and
credits, plus new Cash Advances and Purchases and our charges posted during
the Billing Cycle.
“Payment Due Date” means the date we must receive your payment, which is
not less than 27 days from the Closing Date.

Consent to calls and messages using autodialer, prerecorded message
and artificial voice: You agree and expressly consent that we and our agents,
affiliates, contractors, subcontractors, and assignees may call or contact you
at any cellular, mobile, home, work, or other telephone number, electronic
mail address, or other digital or electronic communication terminal, link, point
or address of any kind whatsoever that (a) you provide or use to contact us,
(b) we obtain from a third party such as an employer, friend, family member,
another creditor, or person with whom you have done business, or (c) we obtain
through any legal means, including without limitation, a caller identification
system that captures your number. You expressly consent to receiving calls, text
messages and other communications from us, our agents, affiliates, contractors,
subcontractors, and assignees on any number that is assigned to a cellular
telephone service, wired telephone service, paging service, facsimile machine,
specialized mobile radio service, radio common carrier service, internet protocol
service, or other electronic, digital or analog service that is placed through or
utilizes an automatic telephone dialing system, artificial voice or pre-recorded
message, or any other technology, even if you incur a cost when we contact you.
You accept responsibility for all costs you incur when contacted through any of
these means.
Indemnification: You agree to indemnify us for all damages, costs and expenses,
including reasonable attorney fees, we incur when we attempt to contact you at
any third party’s telephone number that you provide to us, including any number
for which you fail to notify us is no longer associated with you as the subscriber.
E-mail: By providing us with your e-mail address, you consent to receive
correspondence electronically from us and our affiliates and service providers.
You agree that we may communicate with you by e-mail for any lawful reason.
Other Communication Devices: If you provide us with any other form of
electronic communication mechanism, you agree that we may communicate with
you by that mechanism for any lawful reason.

LI

N

N

ABOUT YOUR PAYMENTS
Amount of Payment, Avoiding Late Fees, and Payment Instructions: You
must make a payment by the Payment Due Date in each billing cycle that has
a New Balance. The amounts you owe are shown in the “Payment Information”
box on the first page of your Statement. To avoid a Late Payment Fee, we
must receive a payment at least equal to the Minimum Payment plus the Past
Due Amount shown on your Statement by 5 pm Central Time (referred to as
the payment cutoff time) on your Payment Due Date. You can make a payment
by mail, by phone, by bill payment service, or online. Instructions on making a
payment and when the payment will be credited to your account are included on
your Statement. Generally, credits from merchants are not treated as payments
and will not reduce the amount you must pay each Billing Cycle. The Payment
Due Date will be at least 27 days from the Statement Closing Date. Your Payment
Due Date will be the same date each month. You can pay all or any portion of
your balance owed on your Account at any time.
Applying Your Payments: We may apply your payment to whichever balances
we choose to the extent it does not exceed the Total Minimum Amount Due
shown on your Statement. The amount of your payment in excess of the
Total Minimum Amount Due will be applied to balances subject to the highest
APR prior to balances subject to lower APRs. We may apply your payment to
principal amounts, INTEREST CHARGES, fees and other charges in any order
we choose, and we may change the order of application of payments from time
to time at our discretion.
Availability of Credit: Available credit created as a result of payments posted
to your Credit Account may not be available for up to 20 days, or even longer if
circumstances warrant an additional hold, or if we deem ourselves at risk for any
reason. Your available credit may be limited, from time to time, if you provide
your Credit Account number or Card to a merchant that processes advance
authorizations, such as hotels, motels and car rental. Such an authorization may
limit your ability to make Purchases and take Cash Advances on your Credit
Account until the authorization is canceled by the merchant and your available
credit is released.
Electronic Check Presentment: When you send us a personal check, you
authorize us to either use information from your check to make a one-time
electronic transfer from your account, or to process the payment as a check

E

transaction. If your check is processed electronically, your canceled check will
not be returned to you by your financial institution. We will retain an image of your
electronically processed check(s) as required by law. If requested prior to the time
we are allowed by law to destroy electronically processed checks, we will provide
you with a copy of your electronically processed check(s) upon your request.
Funds may be withdrawn from your bank account as soon as the day your
payment is received. We agree to accept your checking account statement as
proof of payment. The description on your checking account statement will read:
PREMIER CR CARD CHECK-PAYMT, serial number of the check, amount of the
payment and date of the transaction. If you choose to opt out of electronic check
presentment, please call our Customer Service Department at 1-800-987-5521.
Late Payments: We may accept late payments, partial payments or checks or
other payment instruments marked to impose terms or conditions of acceptance
such as “paid in full” without waiving any of our rights under this Contract, and
no attempt by you to impose any term or condition of acceptance will be effective
against us. Satisfaction of a debt for less than the full amount due or imposition
of any other term or condition on us requires a written agreement, signed by an
authorized Bank representative.
DEFAULT PROVISIONS
Events of Default: You will be in default of this Contract if any of the following
occur on this or any Related Credit Account:
• You do not pay at least the Total Minimum Amount Due on your Credit
Account on or before the Payment Due Date.
• You die or become legally incompetent.
• You become insolvent or bankrupt.
• You exceed or attempt to exceed your Credit Limit.
• You provide us with or have provided us with false or misleading information
or signatures at any time.
• You fail to comply with this Contract.
• You fail to make any payment or perform any promise in any agreement or
obligation you have with us.
• Any judgment, lien, attachment or execution is issued against you or your
property.
• You request an excessive number of replacement Cards.
• We reasonably believe that you will not pay amounts owed to us for any
reason.
If You Are In Default: Upon your default of this Contract, we will have all
remedies provided by law including, without limitation, and without prior notice
or demand, the right to:
• Deny use of your Credit Account.
• Close or refuse to renew your Credit Account.
• Demand the return of your Card(s).
• Declare your entire balance immediately due and payable.
• Initiate collection activity.
• Not replace your Card(s).
Collection Costs: To the extent permitted by law, you must pay all court and
collection costs, including reasonable attorneys’ fees, the costs of placing your
Credit Account in the Warning Bulletin and the costs of confiscating your Card,
that we incur as a result of your default.

O

C

CLOSING YOUR CREDIT ACCOUNT
We May Suspend or Close Your Credit Account: We may suspend your Credit
Account privileges or permanently cancel and close your Credit Account at any
time, for any reason.
You May Close Your Credit Account: You may cancel your Credit Account at
any time by notifying us by telephone or in writing. Even after your Credit Account
is closed, you remain responsible for paying any amounts you owe on the Credit
Account according to the terms of this Contract. If this is a joint Credit Account,
either of you may request that the Credit Account be closed and we will honor
that request.
Non Use Inactivity Closure: If you have never made a payment or used your
Credit Account for a Purchase or Cash Advance, your Credit Account will be
automatically closed, and all fees posted to your Credit Account will be reversed,

PY

USING YOUR CARD
Sign Your Card: Be sure to sign your Card before you use it.
If You Do Not Want the Card: If you do not want the Card and Credit Account,
you must contact us by telephone or in writing asking us to close your Credit
Account.
Do Not Give Your Card to Others: Cards may not be given to anyone else to
use. Other people who want a Credit Account should apply separately.
Your Responsibility for Authorized Users: If another person is given access to
your Credit Account with your express or implied permission, notwithstanding the
provision above, that person is an Authorized User, even if we did not issue an
additional Card in the Authorized User’s name. At your request, and if we agree,
we may issue an additional Card in the name of an Authorized User with your
Credit Account number.
You will be responsible for all charges, Cash Advances, INTEREST CHARGES,
Purchases and fees incurred by any Authorized User. We are not required to try
to obtain payment from any Authorized User before requiring payment from you.
If you wish to remove an Authorized User from your Credit Account you must
contact us either by telephone or in writing. You will still be responsible for payment
of all Purchases, Cash Advances, INTEREST CHARGES and fees incurred or
obtained by the Authorized User. We may close your existing Credit Account and
issue you a new Card and account number. You and each Authorized User agree
that we may report account information to Consumer Reporting Agencies in the
names of both you and the Authorized User.
Lost or Stolen Cards: To protect your rights, you must notify us immediately at
1-800-987-5521 if your Card is lost or stolen or if you suspect that it has been
used or may be used without your permission. If your Card is reported as lost or
stolen or you are claiming unauthorized use of your Credit Account or Card, we
may require you to file one or more reports with the appropriate law enforcement
agencies and us prior to our removal of possible unauthorized charges made
against your Credit Account. You will not be liable for unauthorized use of your
Card. Certain exceptions apply.
Refusal to Accept Your Card: We are not responsible if any person or merchant
does not accept your Card, or if an ATM or other device fails to properly operate.
All transactions, even when you get a receipt, are subject to our final verification.
Cards Are Our Property: You agree to return each Card issued on your Credit
Account to us upon our demand.
USING YOUR CREDIT ACCOUNT
Your Promise To Pay: You agree to pay us for all charges, Cash Advances,
INTEREST CHARGES, Purchases and fees incurred on your Credit Account
by you, or by any Authorized User, as well as any other fees imposed by us,
as explained in this Contract. If more than one person requests or accepts the
Credit Account, each and every person individually and jointly are responsible for

payment until the account is paid in full.
Joint Account Holders: If this is a joint Credit Account, each person who signed
the application: (1) may obtain Purchases and Cash Advances not to exceed the
total credit limit; (2) will be responsible for paying all amounts owed; and (3) can
close the Credit Account.
Accessing Your Credit Line: You can use the Card and your Credit Account to
make Purchases and obtain Cash Advances. Upon your request, you may be
assigned a Personal Identification Number (PIN). If a PIN is assigned to you, you
can obtain a Cash Advance at any authorized ATM by using the Card and PIN.
Understanding Your Credit Limit: Your “Credit Limit” is the maximum amount of
credit we have approved for your Credit Account. The amount of your Credit Limit
is printed on the card carrier containing your Card and on your Statements. Your
balance may not exceed your Credit Limit at any time. At our sole discretion, we
may honor Purchases or Cash Advances in excess of your Credit Limit without
raising your Credit Limit. If we do, we may require you to pay us any amount
over your Credit Limit immediately. Decisions on Credit Limit increases may be
based on your performance under this Credit Account and other Related Credit
Accounts you have with us and other credit criteria. If we have previously allowed
your balance to exceed your Credit Limit, it does not mean that we will permit
your balance to exceed your Credit Limit again. We reserve the right to approve
or deny authorizations or transactions from any merchant at our sole discretion.
Obtaining Cash Advances: You may take Cash Advances on your Credit
Account in any of the following ways: By presenting the Card to us or any other
participating Mastercard® or Visa® financial institution to obtain cash, by using
the Card at an authorized merchant, other non-bank entity, or an Automated
Teller Machine (ATM) or other device to obtain cash or cash equivalent, or to
make a transfer from your Credit Account to any other deposit or loan account.
Even if you use your Credit Account to obtain cash from a non-bank entity, the
transaction will be described as a Bank Cash Advance.
You may not take Cash Advances in excess of $500.00 per day. The minimum
Cash Advance per transaction is $20.00. For Credit Accounts opened on or after
June 1, 2003, your initial Cash Advance limit will be 10% of your assigned Credit
Limit. Once your Credit Account has been open and active for a minimum of 90
days, has two consecutive months of current payment history, is not currently
delinquent and no payments have been returned for the past 60 days, your Cash
Advance availability may be increased to 50% of the assigned Credit Limit. For
example, if your Credit Limit is $250.00, your beginning Cash Advance limit will
be $25.00 and may increase to $125.00 once the criteria above are met.
RECEIVING STATEMENTS, OTHER INFORMATION AND
COMMUNICATIONS FROM US
Where We Send Statements: We will send Statements and any other notices
to you at the address shown in our files. If this is a joint Credit Account, we can
send Statements and notices to either of you. You agree to notify us promptly of
any change in your address. We may accept address changes or corrections
from the United States Postal Service. We may also mail Statements and other
communications to you at any address we determine to be an address at which
you can receive mail. If you elect to receive Statements and other communications
electronically, we may send those Statements and communications as directed
by you.
When You Receive Your Statements: We will send you a Statement at the end
of each monthly Billing Cycle in which your Credit Account has a debit or credit
balance of more than $1.00, if an INTEREST CHARGE has been imposed or if
other account activity has occurred. Your Statements will arrive around the same
time each month, however we reserve the right to change the date of your Billing
Cycle at any time.
Understanding Your Statement: The Statements we send to you will reflect
the activity and our INTEREST CHARGES and other charges, costs and fees
on your Credit Account during the Billing Cycle. They will also show your Total
Minimum Amount Due and Payment Due Date, which is the date by which we
must receive payment. The information contained on the Statement will be
deemed to be correct unless you advise us in writing of any error within 60 days
of the date on which we send your Statement. If there are more than one of
you living at different addresses, we will send the Statements only to the person
named as the “Applicant” in your application.

O

“Proper Form” means a payment sent by mail or courier that:
• is by check, money order, or cashier’s check payable in US dollars (do not
send cash)
• is payable to First PREMIER Bank (no third-party checks)
• includes your payment coupon, or includes your name and account
number on the check
“Related Credit Account(s)” means any Credit Accounts established using the
same Social Security Number.
“Statement” is a summary of your Credit Account activity provided to you at the
end of each Billing Cycle.
“Total Minimum Amount Due” means the total minimum amount we request
that you pay each month as indicated on your Statement. This amount includes
the Minimum Payment, any Past Due Amount and any Amount Over Limit Due,
which is the amount by which the New Balance exceeds your Credit Limit. (See
the Minimum Payment provisions on the Account Opening Disclosures printed
on the card carrier containing your Card for more information on how the “Total
Minimum Amount Due” is calculated.)
“You” and “your” mean each and every person who is authorized to use the
Credit Account, including Authorized Users, joint account holders and other
persons you authorize to use the Card.
Other important words used in this Contract begin with capital letters. They are
defined throughout this Contract.

when your Credit Account becomes 50 days delinquent (75 days from the initial
Statement Closing Date if you are a resident of the State of New York).
REFUND DISCLOSURE
Initial Fee Refunds: The following describes our policy concerning the refund of
initial fees (those fees that are billed on your first statement):
When we will provide a full refund. We will refund the initial fees if you
have not made a Purchase or obtained a Cash Advance and either of the
following are true:
• Your account is closed within 11 days following the payment due
date shown on your first billing statement; or
• Your account is closed before you pay anything after receiving a
billing statement.
When we will provide a partial refund. If your account is closed more than
11 days after the payment due date on your first billing statement, we will
refund the unpaid amount of the outstanding fees even if you have made a
payment after receiving a billing statement as long as you have not made
a Purchase or obtained a Cash Advance. However, we will not refund any
amount you have previously paid, including any other fees billed to your
account.
When we will not provide a refund. We have no obligation to refund fees
or interest after you make a Purchase or obtain a Cash Advance following
receipt of these disclosures.
Credit Limit Increase Fee Refunds: We will refund the Credit Limit Increase
Fee if you reject the credit limit increase within 30 days after the date of the billing
statement on which the fee is billed. This will result in a reversal of the credit limit
increase.
OTHER TERMS AND CONDITIONS
Required Deposit: We require your Credit Account to be secured by a deposit
account which you must maintain at First PREMIER Bank. Additional terms
and conditions governing the deposit account are explained elsewhere in this
Contract.
Severability: If any provision of this Contract is invalid or unenforceable, it shall
not affect the validity or enforceability of any other provision of this Contract.
Changing This Contract: We may change this Contract from time to time. For
example, we may change your Credit Account number or the Minimum Payment,
add new INTEREST CHARGES or fees, change the ANNUAL PERCENTAGE
RATE or change the method of computing the balance upon which we impose
INTEREST CHARGES. We may also make other changes. We will notify you in
writing of any change if required by law. Contract changes will apply to amounts
you owe at the time the change is effective and to new transactions on your Credit
Account, unless otherwise required by law.
Use of Credit Reports: You authorize us to access and use your credit reports
from the consumer reporting agencies for any purpose permitted by law which
may include whether to extend, increase, or decrease credit, reviewing, renewing
or servicing your Credit Account, or determining whether to offer other products
or services to you.
Information Sharing: The following describes your agreement with us with
respect to information sharing. By requesting, obtaining or using a Credit Account
from us you agree that we may release information in our records regarding you
and your Credit Account:
• To comply with any properly served subpoena or similar request issued by
a state or federal agency or court.
• To share your credit performance with Consumer Reporting Agencies and
other creditors who we reasonably believe are or may be doing business
with you on your Credit Account.
• To provide information on your Credit Account to any third party who we
believe is conducting an inquiry in accordance with the Federal Fair Credit
Reporting Act.
• To share information with our employees, agents or representatives
performing work for us in connection with your Credit Account.
• To communicate information as to our transactions or experiences with
you to persons or entities related by common ownership or affiliated by
corporate control or with any third party (including non-affiliates).

